<html>
<title> - STATUS OF WOMEN</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
                            STATUS OF WOMEN

=======================================================================

                               EXCERPTED

                                from the

                           2011 ANNUAL REPORT

                                 of the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 10, 2011

                               __________

 Printed for the use of the Congressional-Executive Commission on China



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




         Available via the World Wide Web: http://www.cecc.gov


                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
71-189 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

CHRISTOPHER H. SMITH, New Jersey,    SHERROD BROWN, Ohio, Cochairman
Chairman                             MAX BAUCUS, Montana
                                     CARL LEVIN, Michigan
                                     DIANNE FEINSTEIN, California
                                     JEFF MERKLEY, Oregon
                                     SUSAN COLLINS, Maine
                                     JAMES RISCH, Idaho

                     EXECUTIVE BRANCH COMMISSIONERS

                  SETH D. HARRIS, Department of Labor
                    MARIA OTERO, Department of State
              FRANCISCO J. SANCHEZ, Department of Commerce
                 KURT M. CAMPBELL, Department of State
     NISHA DESAI BISWAL, U.S. Agency for International Development

                     Paul B. Protic, Staff Director

                 Lawrence T. Liu, Deputy Staff Director

                                  (ii)
                            Status of Women

                                Findings

        <bullet> Chinese officials continue to promote existing 
        laws that aim to protect women's rights, including the 
        amended PRC Law on the Protection of Women's Rights and 
        Interests and the amended PRC Marriage Law; however, 
        ambiguity and lack of clearly outlined responsibilities 
        in China's national-level legislation, in addition to 
        selective implementation and selective enforcement of 
        this legislation across localities, limit progress on 
        concrete protections of women's rights.
        <bullet> In its domestic laws and policy initiatives 
        and through its ratification of the Convention on the 
        Elimination of All Forms of Discrimination against 
        Women (CEDAW), the Chinese government has committed to 
        ensuring female representation in government. However, 
        female representation at all levels of government 
        appears to have made little significant progress in the 
        2011 reporting year.
        <bullet> The National People's Congress Standing 
        Committee passed the revised PRC Organic Law of the 
        Villagers' Committees in October 2010, revising the 
        language stating that there should be ``an appropriate 
        number of women'' in village committees to language 
        that states village committees ``should have female 
        members.'' The revised law also includes a stipulation 
        that women should hold one-third of positions in 
        village representative assemblies. The impact these 
        revisions will have on female representation at the 
        village level in the future is unclear, but some 
        domestic observers have hailed them as a positive step. 
        An increase in women's decisionmaking power at the 
        village level may lead to greater protection of women's 
        property rights in rural areas.
        <bullet> China has committed under CEDAW to take ``all 
        appropriate measures to eliminate discrimination 
        against women in the field of employment.'' Women 
        continue to experience widespread discrimination in 
        areas including recruitment, wages, and retirement 
        despite the fact that the Chinese government has 
        committed under Article 7 of the International Covenant 
        of Economic, Social and Cultural Rights and Article 11 
        of CEDAW to ensuring gender equality in employment. 
        While China's existing laws such as the PRC Labor Law, 
        amended PRC Law on the Protection of Women's Rights and 
        Interests (LPWRI), and PRC Employment Promotion Law 
        prohibit gender discrimination, they lack clear 
        definitions and enforcement mechanisms, which weakens 
        their effectiveness.
        <bullet> The amended LPWRI and amended PRC Marriage Law 
        prohibit domestic violence, and individuals charged 
        with the crime of domestic violence are punishable 
        under the PRC Criminal Law. These national legal 
        provisions leave many who encounter domestic violence 
        unprotected, however, as they do not define domestic 
        violence or outline specific responsibilities of 
        government departments in prevention, punishment, and 
        treatment. Officials reportedly completed draft 
        national-level legislation that clarifies the 
        definition and distribution of government 
        responsibilities. Domestic violence reportedly remains 
        pervasive, affecting nearly one-third of families in 
        China. China's amended LPWRI also prohibits sexual 
        harassment and provides an avenue of recourse for 
        victims. The LPWRI does not, however, provide a clear 
        definition of sexual harassment or specific standards 
        and procedures for prevention and punishment, 
        presenting challenges for victims in protecting their 
        rights. Sexual harassment reportedly remains prevalent 
        in China.
        <bullet> Statistics and analysis from studies published 
        in 2008, 2009, and 2010 regarding China's skewed sex 
        ratio suggest that sex-selective abortion remains 
        widespread, especially in rural areas, despite the 
        government's legislative efforts to deter the practice. 
        Some observers, including Chinese state-run media, have 
        linked China's increasingly skewed sex ratio with an 
        increase in forced prostitution, forced marriages, and 
        other forms of human trafficking.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Support programs in China that increase women's 
        leadership training through U.S.-China exchanges and 
        international conferences. Support legal programs that 
        promote women's land rights, especially in rural areas, 
        and urge that steps be taken to ensure that village 
        rules and regulations are in accordance with national-
        level laws and policies and to ensure adequate 
        protection of women's rights and interests.
        <all> Urge the Chinese government to strengthen 
        enforcement mechanisms for implementation of provisions 
        in the PRC Labor Law, the amended PRC Law on the 
        Protection of Women's Rights and Interests (LPWRI), and 
        the PRC Employment Promotion Law that prohibit gender 
        discrimination. Urge Chinese officials to address 
        specifically gender discrimination in recruitment, 
        wages, and retirement.
        <all> Urge the Chinese government to enact 
        comprehensive national-level legislation that clearly 
        defines domestic violence, assigns responsibilities to 
        government and civil society organizations in 
        addressing it, and outlines punishments for offenders. 
        Inquire whether officials will release such legislation 
        for public comment and, if so, how long the public 
        comment period will be and to whom it will be made 
        available. Urge the Chinese government to further 
        revise the LPWRI or enact new comprehensive national-
        level legislation to provide a clear definition of 
        sexual harassment and specific standards and procedures 
        for prevention and punishment. Support training 
        programs that increase awareness of domestic violence 
        and sexual harassment issues among judicial and law 
        enforcement personnel.

                              Introduction

    Chinese officials continue to actively promote the 
protection of women's rights and interests in accordance with 
international human rights norms; however, due in part to 
ambiguity and a lack of clearly outlined responsibilities in 
China's national-level legislation, women still encounter 
gender inequality, discrimination, and other abuses in the 
community, in the workplace, and at home. Women's 
representation in leadership positions at all levels of 
government still falls short of international norms and, 
according to the most recent available statistics, appears to 
have made little significant progress for at least four 
decades. Chinese women continued to face gender-based 
employment discrimination during the Commission's 2011 
reporting year, including lower average wages than their male 
counterparts, gender bias in recruitment, and compulsory 
retirement at an age set 5 to 10 years younger than that of 
men. Domestic violence and sexual harassment reportedly affect 
a majority of Chinese women, yet ambiguity in China's existing 
national-level legislation on these issues limits preventative 
measures and makes it difficult for women to seek recourse when 
they encounter abusive treatment. Officials reportedly 
completed draft domestic violence legislation that addresses 
longstanding concerns regarding issues such as domestic 
violence among cohabitating couples, psychological abuse, and 
physical violence, but it is unclear when and if such 
legislation will be placed on the legislative agenda. Sex-
selective abortion continues, despite Chinese government 
regulations prohibiting the practice, and exacerbates China's 
severely imbalanced sex ratio. Observers have raised concerns 
this year that China's skewed sex ratio may lead to an uptick 
in the trafficking of women for forced marriage or commercial 
sexual exploitation.

                            Gender Equality

    In its domestic laws \1\ and policy initiatives \2\ and 
through its ratification of the Convention on the Elimination 
of All Forms of Discrimination against Women (CEDAW),\3\ the 
Chinese government has committed to ensuring female 
representation in government. However, at the highest levels of 
the central government, as well as in the Communist Party, 
female representation remains low. Only one woman currently 
holds a position in the Party's top-ranking 25-person Political 
Bureau of the Communist Party Central Committee,\4\ and women 
hold only four positions in China's 35-person State Council.\5\ 
Official statistics on female political participation in the 
country's legislature do not appear to be available for years 
more recent than 2008,\6\ at which time China's National Bureau 
of Statistics reported that women made up approximately 21 
percent of delegates to the National People's Congress. This 
figure has shown little growth since the early 1970s \7\ and 
remains short of the 30 percent standard set by the UN 
Commission on the Status of Women in 1990.\8\ Song Xiuyan, Vice 
Chair of the National Working Committee on Children and Women 
under the State Council, reported in August 2011 that female 
leadership has increased in the provincial, municipal, and 
county levels of government since 2000. When asked about the 
lack of women's political participation at higher levels, she 
stated, ``[W]e still have a lot of work to do to raise social 
awareness and guarantee gender equality through legal means.'' 
\9\ In August 2011, the State Council issued the PRC Outline 
for the Development of Women (2011-2020), which, among other 
goals, calls for ``local governments at the county level and 
above to have at least one female leader'' by the end of 
2020.\10\
    Against a backdrop of reportedly limited female 
representation at the village level,\11\ authorities revised 
national-level legislation this year, changing the language on 
female quotas in village committees and village representative 
assemblies. With limited decisionmaking power in village 
committees, women face challenges in protecting their rights 
and interests.\12\ The National People's Congress Standing 
Committee passed the revised PRC Organic Law of the Villagers' 
Committees in October 2010, changing the stipulation that 
village committees should have ``an appropriate number of 
women'' \13\ to the stipulation that village committees 
``should have female members.'' \14\ The revised law also 
includes a new stipulation requiring that ``female village 
representatives should make up one-third or more of the village 
representative assembly,'' a separate decisionmaking body made 
up of village committee members and village 
representatives.\15\ According to one Peking University law 
professor, ``The Organic Law of the Villagers' Committees is 
not directly aimed at furthering women's rights, however, it is 
of great significance in protecting women's rights, for it is 
related to women's right to vote, which is vital in upholding 
and furthering women's rights and gender equality.'' \16\ The 
impact that these revisions will have on female representation 
at the village level in the future is unclear, but some 
domestic observers have hailed them as a positive step.\17\ An 
increase in women's decisionmaking power at the village level 
may lead to greater protection of women's property rights,\18\ 
an issue that plagues rural women who lose their land when they 
marry out of their village.\19\ [For additional information on 
the PRC Organic Law of the Villagers' Committees, see Section 
III--Institutions of Democratic Governance.]

                       Employment Discrimination

    Gender-based employment discrimination with respect to 
issues such as wages, recruitment, and retirement age remains 
widespread in China, despite government efforts to eliminate it 
and promote women's employment. The Chinese government has 
signed and ratified the International Covenant on Economic, 
Social and Cultural Rights and has committed under Article 7 to 
ensuring ``the right of everyone to the enjoyment of just and 
favourable conditions of work,'' including ``equal pay for 
equal work,'' and ``equal opportunity for everyone to be 
promoted in his employment to an appropriate higher level, 
subject to no considerations other than those of seniority and 
competence.'' \20\ Several domestic laws also prohibit gender 
discrimination and promote gender equality in the 
workplace,\21\ but according to an analysis in a February 2010 
Women's Watch-China report, these laws do not provide guidance 
for an enforcement mechanism. For example, if a female 
encounters discrimination in recruitment or on the job, she has 
no legal basis for filing a lawsuit against the discriminatory 
behavior; she can only request labor arbitration.\22\
    A number of domestic reports and surveys from the 2011 
reporting year highlighted challenges that women continue to 
face in employment due to their gender:

        <bullet>  Difficulty securing employment. According to 
        a January 2011 Shaanxi Provincial Women's Federation 
        survey, 70 percent of those surveyed believed that 
        males have an easier time finding a job than females. 
        In addition, 44 percent of females surveyed reported 
        that they had encountered discrimination based on their 
        marital or childbearing status, compared to 13.9 
        percent of their male counterparts. In addition, 19 
        percent of females surveyed reported that their height 
        and physical appearance were obstacles in their job 
        search, compared to 10.9 percent of their male 
        counterparts.\23\

        <bullet>  Wage disparity. A survey released in February 
        2011 by the educational consulting firm MyCOS reported 
        that the income gap between male and female graduates 
        increased with their level of education. For example, 
        on a monthly basis, males with vocational school 
        degrees reportedly earned an average of 169 yuan 
        (US$26) more than females, males with undergraduate 
        degrees reportedly earned an average of 330 yuan 
        (US$51) more than females, and males with graduate 
        degrees earned an average of 815 yuan (US$126) more 
        than females.\24\

        <bullet>  Unequal treatment. A study released in March 
        2011 by the non-profit research group Center for Work-
        Life Policy reported that, in a survey on the female 
        talent pool in China, 35 percent of those surveyed 
        believed that women faced unfair treatment at work. The 
        study also found that 48 percent of women choose to 
        ``disengage, scale back their ambitions or consider 
        quitting [their jobs]'' due to ``problems of bias.'' 
        \25\

        <bullet>  Forced early retirement. Mandatory retirement 
        ages for women in China continue to be five years 
        earlier than those for men.\26\ Public discussion on 
        retirement age burgeoned in the 2011 reporting year 
        surrounding the publication of a white paper on the 
        state of China's human resources in September 2010,\27\ 
        the issuance of new social security regulations in 
        Shanghai municipality in September 2010,\28\ passage of 
        the PRC Law on Social Insurance in October 2010,\29\ 
        proposals at the annual sessions of the National 
        People's Congress in March 2011,\30\ and the release of 
        the 2010 Census results in April.\31\ The gender 
        discrepancy in retirement age may obstruct some women's 
        career advancement and impact their economic rights and 
        interests.\32\ In the past, the lower retirement age 
        for women has also reportedly contributed to hiring 
        discrimination, as employers in some cases preferred to 
        hire women younger than 40 years of age.\33\

    In May 2011, the Shenzhen Municipal Women's Federation 
passed draft regulations on gender equality.\34\ If adopted, 
the Shenzhen Special Economic Zone Gender Equality Promotion 
Regulations would be the first legislation of their kind in 
China to specifically focus on gender equality.\35\ The draft 
has reportedly been placed on the 2011 legislative agenda.\36\

                         Violence Against Women


                           domestic violence


    The amended PRC Law on the Protection of Women's Rights and 
Interests (LPWRI) and amended PRC Marriage Law prohibit 
domestic violence,\37\ and the crime of domestic violence is 
punishable under the PRC Criminal Law.\38\ The problem of 
domestic violence remains widespread, reportedly affecting more 
than one-third of Chinese families.\39\ Current national-level 
legal provisions regarding domestic violence leave many victims 
unprotected, as they simply prohibit domestic violence without 
defining the term or clarifying specific responsibilities of 
government departments in prevention, punishment, and 
treatment.\40\ During the Commission's 2011 reporting year, 
Chinese advocates continued to express concern regarding the 
nationwide problem of domestic violence and called for clear 
national-level legislation on domestic violence.\41\ According 
to state-run media sources, officials announced in March 2011 
the completion of draft domestic violence legislation.\42\ 
Highlights reportedly include attention given to cohabitating 
couples, as well as to cases that involve ``psychological 
violence.'' \43\


                           sexual harassment


    Sexual harassment remains prevalent in China, yet those who 
encounter sexual harassment remain largely unprotected under 
Chinese law and face difficulties in defending their rights. An 
April 2011 article published by a Chinese business 
investigation group reported that 84 percent of women in China 
had experienced some form of sexual harassment and that 50 
percent of this harassment had occurred in the workplace.\44\ A 
Women's Watch-China (WWC) survey released in May 2011 
interviewed both men and women and found that 19.8 percent of 
those surveyed had experienced sexual harassment, and of those, 
55.1 percent were women.\45\ The Chinese government has 
committed under Article 11 of the Convention on the Elimination 
of All Forms of Discrimination against Women to taking ``all 
appropriate measures to eliminate discrimination against women 
in the field of employment,'' \46\ and it introduced the 
concept of sexual harassment into legislation with the 2005 
amendment to the LPWRI.\47\ The amended LPWRI prohibits sexual 
harassment and provides an avenue of recourse for victims 
through either administrative punishment for offenders or civil 
action in the court system, but it does not provide a clear 
definition of sexual harassment or specific standards and 
procedures for prevention and punishment.\48\ While most people 
who face sexual harassment choose to remain silent about 
it,\49\ those who decide to take legal action risk losing their 
lawsuits due to the challenge of supplying adequate 
evidence.\50\
    As reported in the Commission's 2009 and 2010 Annual 
Reports, in February 2009, a study group led by three Chinese 
researchers submitted a draft proposal to the National People's 
Congress for a law aimed at preventing sexual harassment in the 
workplace.\51\ The proposed law would hold the Ministry of 
Human Resources and Social Security responsible for prevention 
and punishment of sexual harassment in the workplace, while 
also holding the All-China Federation of Trade Unions, the 
Communist Youth League, and the All-China Women's Federation 
responsible for providing aid to those who experience sexual 
harassment.\52\ The Commission has not found indicators of 
progress on this or similar national-level legislation during 
the 2011 reporting year.

                Population Planning and Gender Equality

    According to reports during the Commission's 2011 reporting 
year, sex-selective abortion continues, despite the 
government's legislative and policy efforts to deter such 
practices. In response to government-imposed birth limits and 
in keeping with a traditional cultural bias for sons, some 
Chinese parents choose to engage in sex-selective abortion, 
especially rural couples whose first child is a girl.\53\ The 
Chinese government issued national regulations in 2003 banning 
prenatal gender determination and sex-selective abortion.\54\ 
Statistics and analysis from studies published in 2008,\55\ 
2009,\56\ and 2010 \57\ regarding China's significantly skewed 
sex ratio show that sex-selective abortion remains prevalent, 
especially in rural areas, suggesting that implementation of 
the ban on sex-selective abortion remains uneven. In August 
2011, the State Council issued the PRC Outline for the 
Development of Children (2011-2020), which urged officials to 
``step up efforts against the use of ultrasound and other 
[forms of technology] to engage in non-medically necessary sex 
determination and sex-selective abortion.'' \58\ Some 
observers, including Chinese state media, have linked China's 
increasingly skewed sex ratio with an increase in forced 
prostitution, forced marriages, and other forms of human 
trafficking.\59\ [For more information regarding China's skewed 
sex ratio, see Section II--Population Planning.]

                                Endnotes

    \1\ The PRC Law on the Protection of Women's Rights and Interests 
and the PRC Electoral Law of the National People's Congress and Local 
People's Congresses stipulate that an ``appropriate number'' of female 
deputies should serve at all levels of people's congresses. PRC Law on 
the Protection of Women's Rights and Interests [Zhonghua renmin 
gongheguo funu quanyi baozhang fa], enacted 3 April 92, effective 1 
October 92, amended 28 August 05, art. 11; PRC Electoral Law of the 
National People's Congress and Local People's Congresses [Zhonghua 
renmin gongheguo quanguo renmin daibiao dahui he difang geji renmin 
daibiao dahui xuanju fa], enacted 1 July 79, amended 10 December 82, 2 
December 86, 28 February 95, 27 October 04, 14 March 10, art. 6.
    \2\ PRC State Council, PRC Outline for the Development of Women 
[Zhongguo funu fazhan gangyao], issued 30 July 11; PRC State Council, 
PRC Outline for the Development of Children [Zhongguo ertong fazhan 
gangyao], issued 30 July 11.
    \3\ Convention on the Elimination of All Forms of Discrimination 
against Women, adopted and opened for signature, ratification, and 
accession by UN General Assembly resolution 34/180 of 18 December 79, 
entry into force 3 September 81, art. 7. China signed the convention on 
17 July 80 and ratified it on 4 November 80.
    \4\ State Councilor Liu Yandong is reportedly the only woman who 
holds a position in the Politburo. Jen-Kai Liu, ``The Main National 
Leadership of the PRC,'' China Data Supplement, Journal of Current 
Chinese Affairs, Vol. 19, No. 3 (2011), 3; ``Liu Yandong,'' China 
Vitae, accessed 13 April 11.
    \5\ Jen-Kai Liu, ``The Main National Leadership of the PRC,'' China 
Data Supplement, Journal of Current Chinese Affairs, Vol. 19, No. 3 
(2011), 3; Michael Forsythe and Yidi Zhao, ``Women Knowing China Men 
Rule Prove Mao's Half the Sky Remains Unfulfilled,'' Bloomberg News, 23 
June 11.
    \6\ ``Number of Deputies to All Previous National People's 
Congresses'' [Lijie quanguo renmin daibiao dahui daibiao renshu], China 
Statistical Yearbook 2010, 26 September 10, Table 22-1.
    \7\ Ibid.
    \8\ The target of 30 percent female representation in leadership 
positions by 1995 was set by the UN Commission on the Status of Women 
at its 34th session in 1990. ``Target: 30 Percent of Leadership 
Positions to Women by 1995--United Nations Commission on the Status of 
Women,'' United Nations Publications, reprinted in Bnet, June 1990.
    \9\ ``87.1 Pct of China's Provincial Regions Have Female Vice 
Governors,'' Xinhua, 9 August 11.
    \10\ PRC State Council, PRC Outline for the Development of Women 
[Zhongguo funu fazhan gangyao], issued 30 July 11; PRC State Council, 
PRC Outline for the Development of Children [Zhongguo ertong fazhan 
gangyao], issued 30 July 11; He Dan and Cang Wei, ``Women Seek Larger 
Role,'' China Daily, 10 August 11.
    \11\ According to All-China Women's Federation Deputy Chair Hong 
Tianhui, cited in a November 2010 People's Daily report, women hold 
approximately 3 percent of village committee director positions. 
``Official: China's Sex Ratio Lacks Proportion,'' People's Daily, 17 
November 10. For statistics on village representation from the 2010 
reporting year, see ``Chen Zhili: All-China Women's Federation Actively 
Promotes Female Political Participation'' [Chen zhili biaoshi fulian 
jiang jiji tuidong funu canzheng yizheng], China Radio International, 6 
March 10.
    \12\ Women's Watch-China, ``Annual Report 2008,'' 23 October 09, 
19. According to this report, ``Women's participation in grassroots 
decision-making bodies is comparatively low. They have a disadvantaged 
position in political affairs. Moreover, as women had been kept away 
from the decision-making power of the village, they had low awareness 
of or enthusiasm for getting involved in village self-governance and 
safeguarding their rights and interests. Consequently, they were not 
able to unite themselves into a powerful interest group and to fight 
for their own rights and interests. As a result, they could not 
challenge the powerful and dominant male decision-making groups.''
    \13\ PRC Organic Law of the Villagers' Committees [Zhonghua renmin 
gongheguo cunmin weiyuanhui zuzhi fa], enacted 4 November 98, art. 9.
    \14\ PRC Organic Law of the Villagers' Committees [Zhonghua renmin 
gongheguo cunmin weiyuanhui zuzhi fa], enacted 4 November 98, amended 
28 October 10, art. 6.
    \15\ Ibid., art. 25.
    \16\ Wang Lei, Women's Watch-China, ``A Perspective on the 
Amendment of the Organic Law of the Villagers' Committees Concerning 
the Protection of Women's Rights,'' 15 March 10.
    \17\ Women's Watch-China, ``Women's Organizations Discuss Draft of 
Revised Organic Law of the Villagers' Committees, Each Anticipate 
Increased Level of Village Female Political Participation'' [Funu jie 
tan cunmin weiyuanhui zuzhi fa xiuding cao'an-yiyi qidai nongcun funu 
canzheng shuiping jinyibu tigao], 2 February 10.
    \18\ Women's Watch-China, ``Annual Report 2008,'' 23 October 09, 
19-20, 27.
    \19\ Women's Watch-China, ``20 Percent of Rural-to-Urban Female 
Migrant Workers Lose Land'' [20% jincheng wugong nongcun nuxing shiqu 
tudi], 12 February 11; Women's Watch-China, ``The E-Newsletter 69 of 
WW-China,'' 16 June 11, 4-8. For information on one city's revision of 
village rules and regulations to safeguard women's rights and 
interests, see ``Revision of Village Regulations Is a Starting Point 
Opportunity for Village Women's Rights Defense'' [Cungui minyue xiuding 
shi jihui cun tun funu weiquan you zhuashou], Heilongjiang Daily, 4 
November 10.
    \20\ International Covenant on Economic, Social and Cultural Rights 
(ICESCR), adopted by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 3 January 76, art. 7. China signed the 
covenant on 27 October 97 and ratified it on 27 March 01. See also PRC 
Employment Promotion Law [Zhonghua renmin gongheguo jiuye cujin fa], 
enacted 30 August 07, effective 1 January 08, art. 3.
    \21\ PRC Labor Law [Zhonghua renmin gongheguo laodong fa], enacted 
5 July 94, effective 1 January 95, amended 10 October 01, arts. 12, 13. 
PRC Law on the Protection of Women's Rights and Interests [Zhonghua 
renmin gongheguo funu quanyi baozhang fa], enacted 3 April 92, 
effective 1 October 92, amended 28 August 05, arts. 22-27; PRC 
Employment Promotion Law [Zhonghua renmin gongheguo jiuye cujin fa], 
enacted 30 August 07, effective 1 January 08, art. 3.
    \22\ Women's Watch-China, ``The E-Newsletter 54 of WW-China,'' 
February 2010, 10.
    \23\ ``19 Percent of Women Face Discrimination Based on Appearance 
When Seeking Jobs, 44 Percent of Women Have Faced Discrimination Based 
on Childbearing Status'' [19% nuxing qiuzhi cunzai rongmao qishi, 44% 
nuxing zao hunyun qishi], Xi'an Evening News, 13 January 11.
    \24\ ``Analysis of October Results From the `2011 University 
Graduate Follow-Up Survey Monthly Report,' '' MyCOS HR Digital 
Information Co., Ltd., 2011; Women's Watch-China, ``Income Gap Is Large 
Between Male and Female University Students'' [Nannu daxuesheng shouru 
chaju da], 3 March 11.
    \25\ Center for Work-Life Policy, ``New Study Finds the Solution to 
China's Talent Crunch Is in the Hidden Talent Pool of Educated Chinese 
Women,'' 22 March 11.
    \26\ Currently, retirement ages for male and female government and 
Party officials are 60 and 55, respectively, while retirement ages for 
male and female workers in general are 60 and 50, respectively. 
``China's Compulsory Retirement Age for Males and Females Challenged 
for Violating Constitution'' [Woguo nannu tuixiu nianling guiding 
beitiqing weixian shencha], China Law Education, 16 March 06. For 
information on the current debate about raising the retirement age, see 
``Retirement Age Will Be Pushed Back: Minister,'' China Daily, 
reprinted in Sina, 22 March 10.
    \27\ PRC State Council Information Office, ``China's Human 
Resources Situation'' [Zhongguo de renli ziyuan zhuangkuang], reprinted 
in PRC Central Government Web Portal, 10 September 10. For discussion 
following this white paper on retirement age, see, e.g., Kit Gillet, 
``White Paper on Retirement Age Prompts Fresh Debate,'' South China 
Morning Post, 22 September 10.
    \28\ Shanghai Municipal Bureau of Human Resources and Social 
Security, Municipal Bureau of Human Resources and Social Security Trial 
Opinion Regarding [Shanghai's] Enterprise Talent Pool of All Kinds and 
Flexible Deferment of the Pension Application Process [Shi renli ziyuan 
shehui baozhang ju guanyu benshi qiye gelei rencai rouxing yanchi banli 
shenling jiben yanglaojin shouxu de shixing yijian], issued 6 September 
10, effective 1 October 10; Huang Anqi, ``Relevant Person in Charge at 
Shanghai Municipal Bureau of Human Resources and Social Security 
Analyzes Shanghai's `Trial Opinions' To Defer Application for Pension'' 
[Shanghai shi renli ziyuan he shehui baozhang ju youguan fuzeren jiedu 
shanghai yanchi shenling yanglaojin ``shixing yijian''], Xinhua, 5 
October 10; Duan Yan, ``Age-Old Problem Looms for Families,'' China 
Daily, 14 October 10.
    \29\ PRC Social Insurance Law [Zhonghua renmin gongheguo shehui 
baoxian fa], enacted 28 October 10, effective 1 July 11. For examples 
of reports discussing the possibility of and need for raising the 
retirement age, see Chen Xin, ``Experts Warn Pension Fund Under 
Pressure,'' China Daily, 30 October 10.
    \30\ Li Dong et al., ``Respect Women's Choice'' [Zunzhong nuxing 
ziji xuanze], Guangzhou Daily, 8 March 11; Zhao Yinan, ``Women's 
Retirement May Be Delayed,'' China Daily, 1 March 11; Wang Chunxia, 
All-China Women's Federation, ``Gender Equal Retirement Age Imminent 
but Gradual,'' 15 March 11.
    \31\ National Bureau of Statistics, ``Report on the Main Data From 
the 2010 Sixth National Population Census (No. 1)'' [2010 nian diliuci 
quanguo renkou pucha zhuyao shuju gongbao (di 1 hao)], 28 April 11; 
National Bureau of Statistics, ``Report on the Main Data From the 2010 
Sixth National Population Census (No. 2)'' [2010 nian diliuci quanguo 
renkou pucha zhuyao shuju gongbao (di 2 hao)], 29 April 11; Feng Han, 
``Flexible Retirement System Under Discussion in China,'' Global Times, 
25 May 11.
    \32\ Gao Zhuyuan, ``Same Retirement Age for All,'' China Daily, 24 
March 11. According to one observer cited in this report, the earlier 
compulsory retirement age for women is ``outdated, causes huge 
financial loss to women and blocks their career path.''
    \33\ ``China's Compulsory Retirement Age for Males and Females 
Challenged for Violating Constitution'' [Woguo nannu tuixiu nianling 
guiding bei tiqing weixian shencha], China Law Education, 16 March 06; 
CECC, 2009 Annual Report, 10 October 09, 170.
    \34\ All-China Women's Federation, ``Shenzhen First To Enforce 
Rules on Gender Equality,'' 1 June 11.
    \35\ For a brief analysis of highlights in the draft regulations, 
see Women's Watch-China, ``Preparing To Draft Gender Equality Promotion 
Regulations, Shenzhen Leads the Way'' [Yunniang zhiding xingbie 
pingdeng cujin tiaoli, shenzhen xianxing], 3 March 11. See also CECC, 
2010 Annual Report, 10 October 10, 131-132.
    \36\ All-China Women's Federation, ``Shenzhen First To Enforce 
Rules on Gender Equality,'' 1 June 11; `` `Gender Equality Promotion 
Regulations' on Shenzhen's Legislative Agenda This Year'' [``Xingbie 
pingdeng cujin tiaoli'' lieru shenzhen jinnian lifa xiangmu], China 
Women's News, reprinted in All-China Women's Federation, 22 March 11.
    \37\ PRC Law on the Protection of Women's Rights and Interests 
[Zhonghua renmin gongheguo funu quanyi baozhang fa], enacted 3 April 
92, effective 1 October 92, amended 28 August 05, art. 46; PRC Marriage 
Law [Zhonghua renmin gongheguo hunyin fa], enacted 10 September 80, 
effective 1 January 81, amended 28 April 01, art. 3.
    \38\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], enacted 
1 July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, arts. 234, 236, 260.
    \39\ Cheng Yingqi, ``Call for Legislation To Curb Domestic 
Violence,'' China Daily, 26 November 10.
    \40\ PRC Law on the Protection of Women's Rights and Interests 
[Zhonghua renmin gongheguo funu quanyi baozhang fa], enacted 3 April 
92, effective 1 October 92, amended 28 August 05, art. 46; PRC Marriage 
Law [Zhonghua renmin gongheguo hunyin fa], enacted 10 September 80, 
effective 1 January 81, amended 28 April 01, art. 3. For Chinese 
experts' discussion of the shortcomings of current national-level 
legislation, see ``All-China Women's Federation Strongly Promotes Anti-
Domestic Violence Law'' [Quanguo fulian litui fan jiating baoli fa], 
People's Representative News, 31 December 09; Women's Watch-China, 
``Proposal for Law on Prevention and Curbing of Domestic Violence Comes 
Out'' [Yufang he zhizhi jiating baoli fa jianyi gao chulu], 28 November 
09; He Ping, ``China Scholars Call for Attention on `Anti-Domestic 
Violence Legislation' '' [Zhongguo xuezhe huyu guanzhu ``fan jiating 
baoli'' lifa], Radio Free Asia, 13 January 10. See also ``All-China 
Women's Federation Proposes, Highlights Need for Draft Anti-Domestic 
Violence Legislation,'' Congressional-Executive Commission on China, 2 
February 10.
    \41\ ``All-China Women's Federation Vice-Chair: Anti-Domestic 
Violence Should Be Entered Into Legislative Agenda'' [Quanguo fulian fu 
zhuxi: fan jiating baoli ying lieru lifa], Jinghua Times, reprinted in 
Huanqiu Net, 8 March 11; Cheng Yingqi, ``Call for Legislation To Curb 
Domestic Violence,'' China Daily, 26 November 10.
    \42\ Chen Bin, ``Draft of First Anti-Domestic Violence Law 
Reportedly Already Complete'' [Jucheng shoubu fan jiating baoli fa 
cao'an yi qicao wancheng], Legal Weekly, reprinted in Sina, 18 March 
11; ``Draft of `Anti-Domestic Violence Law' Complete'' [``Fan jiating 
baoli fa'' cao'an qicao wancheng], Xinhua, 20 March 11.
    \43\ ``Draft of `Anti-Domestic Violence Law' Complete'' [``Fan 
jiating baoli fa'' cao'an qicao wancheng], Xinhua, 20 March 11.
    \44\ Guangdong Bonthe Business Investigation Co., ``Female 
University Graduate Survey'' [Nu daxuesheng diaocha], 21 April 11.
    \45\ Women's Watch-China, ``Survey Report on Sexual Harassment in 
the Workplace'' [Zhichang xing saorao diaocha baogao], 16 May 11, 3.
    \46\ Convention on the Elimination of All Forms of Discrimination 
against Women, adopted and opened for signature, ratification, and 
accession by UN General Assembly resolution 34/180 of 18 December 79, 
entry into force 2 September 81, art. 11. China signed the convention 
on 17 July 80 and ratified it on 4 November 80.
    \47\ Women's Watch-China, ``Annual Report 2008,'' 23 October 09, 
30; PRC Law on the Protection of Women's Rights and Interests [Zhonghua 
renmin gongheguo funu quanyi baozhang fa], enacted 3 April 92, 
effective 1 October 92, amended 28 August 05, arts. 40, 58.
    \48\ Ibid.
    \49\ Tang Yu, ``Sexual Harassment in the Workplace, What 
Difficulties Exist in Defending One's Rights'' [Zhichang xing saorao 
weiquan heqi nan], China Worker Net, 7 January 11; Women's Watch-China, 
``Survey Report on Sexual Harassment in the Workplace'' [Zhichang xing 
saorao diaocha baogao], 16 May 11, 5.
    \50\ Tang Yu, ``Sexual Harassment in the Workplace, What 
Difficulties Exist in Defending One's Rights'' [Zhichang xing saorao 
weiquan heqi nan], China Worker Net, 7 January 11; Gao Zhuyuan, ``The 
Evil of Sexual Harassment,'' China Daily, 2 June 11.
    \51\ Maple Women's Psychological Counseling Center Beijing, ``Law 
on Prevention of Sexual Harassment in the Workplace Submitted to the 
National People's Congress (Draft Proposal)'' [Xiang quanguo renda 
tijiao ``gongzuo changsuo xing saorao fangzhifa'' (jianyi gao) yi an], 
17 March 09; CECC, 2010 Annual Report, 10 October 10, 133.
    \52\ Maple Women's Psychological Counseling Center Beijing, ``Law 
on Prevention of Sexual Harassment in the Workplace Submitted to the 
National People's Congress (Draft Proposal)'' [Xiang quanguo renda 
tijiao ``gongzuo changsuo xing saorao fangzhifa'' (jianyi gao) yi an], 
17 March 09.
    \53\ See, e.g., Therese Hesketh, Li Lu, and Zhu Wei Xing, ``The 
Consequences of Son Preference and Sex-Selective Abortion in China and 
Other Asian Countries,'' Canadian Medical Journal, 14 March 11, 1-2; 
Mikhail Lipatov, Shuzhuo Li, and Marcus W. Feldman, ``Economics, 
Cultural Transmission, and the Dynamics of the Sex Ratio at Birth in 
China,'' Proceedings of the National Academy of Sciences of the United 
States of America, Vol. 105, No. 49 (2008), 19171. According to this 
study, ``The root of the [sex ratio] problem lies in a 2,500-year-old 
culture of son preference.'' See also Chu Junhong, ``Prenatal Sex 
Determination and Sex-Selective Abortion in Rural Central China,'' 
Population and Development Review, Vol. 27, No. 2 (2001), 260; Joseph 
Chamie, ``The Global Abortion Bind: A Woman's Right To Choose Gives Way 
to Sex-Selection Abortions and Dangerous Gender Imbalances,'' Yale 
Global, 29 May 08.
    \54\ State Commission for Population and Family Planning, Ministry 
of Health, State Food and Drug Administration, PRC Regulations 
Regarding the Prohibition of Non-Medically Necessary Gender 
Determination Examinations and Sex-Selective Termination of Pregnancy 
[Guanyu jinzhi fei yixue xuyao de tai'er xingbie jianding he xuanze 
xingbie de rengong zhongzhi renshen de guiding], issued 29 November 02, 
effective 1 January 03. For a discussion of these regulations, see 
``China Bans Sex-Selection Abortion,'' Xinhua, reprinted in China Net, 
22 March 03.
    \55\ Mikhail Lipatov et al., ``Economics, Cultural Transmission, 
and the Dynamics of the Sex Ratio at Birth in China,'' Proceedings of 
the National Academy of Sciences of the United States of America, Vol. 
105, No. 49 (2008), 19171. According to this study, ``The root of the 
[sex ratio] problem lies in a 2,500-year-old culture of son 
preference.''
    \56\ Wei Xing Zhu et al., ``China's Excess Males, Sex Selective 
Abortion and One Child Policy: Analysis of Data From 2005 National 
Intercensus Survey,'' British Medical Journal, 9 April 09, 4-5.
    \57\ Chinese Academy of Social Sciences, ``Difficulty Finding a 
Wife in 10 Years: 1 Out of Every 5 Men To Be a Bare Branch'' [10 nian 
zhihou quqi nan, 5 ge nanren zhong jiuyou 1 ge guanggun], 27 January 
10. According to the January 2010 Chinese Academy of Social Sciences 
study, by 2020, the number of Chinese males of marriageable age may 
exceed the number of Chinese females of marriageable age by 30 to 40 
million.
    \58\ PRC State Council, PRC Outline for the Development of Women 
[Zhongguo funu fazhan gangyao], issued 30 July 11; PRC State Council, 
PRC Outline for the Development of Children [Zhongguo ertong fazhan 
gangyao], issued 30 July 11.
    \59\ ``China Gender Gap Fuelling Human Trafficking: Report,'' 
Agence France-Presse, reprinted in China Post, 22 September 10. See 
also World Health Organization, Office of the High Commissioner for 
Human Rights, United Nations Population Fund, United Nations Children's 
Fund, and United Nations Entity for Gender Equality and the Empowerment 
of Women, ``Preventing Gender-Biased Sex Selection,'' 14 June 11, 5; 
Susan W. Tiefenbrun and Christie J. Edwards, ``Gendercide and the 
Cultural Context of Sex Trafficking in China,'' Fordham International 
Law Journal, Vol. 32, No. 3 (2009), 752; Therese Hesketh et al., ``The 
Effect of China's One-Child Policy After 25 Years,'' New England 
Journal of Medicine, Vol. 353, No. 11 (2005), 1173; Nicholas Eberstadt, 
``A Global War Against Baby Girls: Sex-Selective Abortion Becomes A 
Worldwide Practice,'' Handbook of Gender Medicine, reprinted in All 
Girls Allowed, 1 May 11. According to Eberstadt's report, ``Some 
economists have hypothesized that mass feticide, in making women 
scarce, will only increase their `value'--but in settings where the 
legal and personal rights of the individual are not secure and 
inviolable, the `rising value of women' can have perverse and 
unexpected consequences, including increased demand for prostitution 
and an upsurge in the kidnapping and trafficking of women (as is now 
reportedly being witnessed in some women-scarce areas in Asia)[.]''

                                 <all>

</pre></body></html>
